         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Audit Report
The Management of Post-Recovery
Act Workforce Transition at Office of
Environmental Management Sites




OAS-RA-12-06                         February 2012
                                 Department of Energy
                                   Washington, DC 20585
                                      February 22, 2012


MEMORANDUM FOR THE SECRETARY


FROM:                   Gregory H. Friedman
                        Inspector General

SUBJECT:                INFORMATION: Audit Report on "The Management of Post-
                        Recovery Act Workforce Transition at Office of Environmental
                        Management Sites"

BACKGROUND

The American Recovery and Reinvestment Act of 2009 was enacted to stimulate the economy,
preserve and create jobs and to invest in environmental protection and infrastructure
improvements that will provide long-term economic benefits. The Department of Energy's
Office of Environmental Management received $6 billion under the Recovery Act to promote
economic recovery through job creation and retention, while accelerating environmental cleanup
activities across EM sites. As Recovery Act projects are completed, sites are reducing the
workforce to levels needed to perform remaining base work. The Department estimates that with
the end of Recovery Act funding and other known budget reductions, as many as 4,450 Recovery
Act and base program workers at EM sites will be displaced. At the time of our review, more
than 3,600 workers at EM sites had been displaced. As required by statute and/or Department
regulation, displaced workers subject to involuntary separation must be given notice or payment
in lieu of notice.

As we observed following previous workforce restructuring efforts (Attachment 3), the
Department had not always ensured that benefits provided to similarly separated contractor
employees were comparable and/or comported with guidance then in effect. Because of the
extent of current reductions in staffing, we initiated this audit to determine whether the
Department had developed and was properly executing an effective plan to transition its
environmental remediation contractor workforce to a post-Recovery Act posture.

CONCLUSIONS AND OBSERVATIONS

Our review, at two major EM managed sites, the Hanford Site and the Savannah River Site,
established that the Department and its contractors had developed plans to transition its
workforce as Recovery Act funds were exhausted. These facility contractor-developed plans
were approved by Federal officials and, for the most part, complied with existing guidance. Our
review of Recovery Act hiring practices at the two EM sites disclosed that, to the extent
practicable, both sites took up front measures to control future separation costs. For example,
they emphasized hiring temporary employees who would not be eligible for separation benefits
in expectation that the workforce would be reduced at the completion of the Recovery Act
projects.

We found, however, that the transition approach adopted at Savannah River has resulted in
unnecessary payments of nearly $7.7 million to separated contractor employees. The Savannah
River approach, if adopted elsewhere or if considered precedent-setting, could materially impact
upcoming restructuring efforts at other Department of Energy facilities. Specifically, we
observed that:

   •   Even though not required by statute or Departmental Order, Savannah River elected to
       provide separating employees with 60 days of pay rather than giving them the required
       advance termination notices. This decision resulted in payments for which the
       Department received no direct benefit. The payments were in addition to severance pay
       and other health and outplacement benefits each terminated contractor employee received
       (Attachment 2). A Federal official at the Savannah River Site Office indicated that this
       approach was adopted for employees of Savannah River Nuclear Solutions (SRNS)
       because of security risks associated with high hazard work; however, no comprehensive
       analyses could be provided to substantiate the perceived risks; and,

   •   In sharp contrast, transitioning employees at Hanford were to be provided with advance
       notice of termination and, as a result, were to continue performing their assigned tasks
       during the notice period. As with separating employees at Savannah River, employees
       impacted by restructuring efforts by CH2M HILL Plateau Remediation Company and
       Mission Support Alliance at Hanford were to receive severance payments and a suite of
       other benefits.

In cases of significant involuntary terminations, each of the Department's contractors is required
by the Worker Adjustment and Retraining Notification Act (WARN Act) to provide 60 days
notice when involuntary terminations of 500 or more employees take place within a rolling
90-day period. Departmental Order 350.1 also requires that contractors provide individual
employees as much notice of involuntary separation as is practicable, but not less than 2 weeks
notice or 2 weeks pay in lieu of notice when the WARN Act does not apply to the workforce
reduction. The WARN Act, however, does not specifically require payments in lieu of notice.

The key issues in the above cases are (i) whether it is necessary, economical, and efficient to
provide payments in lieu of notice to displaced contractor employees hired as a result of the
Recovery Act; and, (ii) whether disparate and significantly inconsistent treatment of contractor
employees at various Department sites is fair, equitable and in the Government’s best interest.
Rather than adopting a consistent approach to the notice requirement, the Department authorized
its contractors to provide differing benefits by location, even though the employees at both sites
were similarly situated. The approach employed has thus far resulted in about $7.7 million in
payments in lieu of notice to terminated workers at Savannah River. In terms of work product,
as a result of the Hanford policy, the Department will receive 60 days of additional
environmental remediation services.




                                                 2
While we are sensitive to the impact that the transition has on employees, the need to ensure that
taxpayer provided funds are spent prudently is especially important in these trying budgetary and
economic times. In short, we are concerned that it may not have been reasonable or equitable to
provide terminated employees in Savannah River with additional payments beyond the suite of
benefits provided to similarly situated employees in Hanford.

                         Decision to Provide Payments in Lieu of Notice

Even though not specifically required by the WARN Act or by agency regulation, SRNS
decided, with Department approval, to provide 60 days of pay in lieu of providing contractor
employees with notice. According to a Federal official at the Savannah River Site Office, the
decision to pay employees in lieu of the advance warning was directly tied to site safety and
security and is a custom that has been in practice since 1993. However, the Site Office was
unable to provide documentation to support this decision. Instead we found that SRNS had not
fully analyzed whether or not such a notice exacerbated site safety and security issues, and, if so,
to what degree. In particular, we determined that SRNS had not performed comprehensive
vulnerability assessments in support of the decision to not provide employees with notice.

The situation at Hanford was in contrast. Our review of transition plans at Hanford demonstrated
that it planned to provide notice instead of payment in lieu of notice – either the 60 days required
by the WARN Act or the 2 weeks required by the Department – for transitioning employees.

EM and other responsible offices had reviewed and approved the differing treatment of
employees at these two sites even though the workers were similarly situated. Workers at both
Hanford and Savannah River had similar missions and employee classifications and thus faced
similar security risks. Although Savannah River had a nuclear weapons-related mission that did
not exist at Hanford, the workers involved in the transition were involved with environmental
cleanup and did not have access to the special nuclear materials areas at the site. Nonetheless, a
Federal official at Savannah River indicated that the Department would not have provided notice
even if the nuclear weapons activities were not performed at the site.

                                             Guidance

Inconsistent application of the workforce notification or payments in lieu of notification
requirement occurred because sites did not receive formal guidance from Headquarters on
implementation. Specifically, an EM official told us that no overarching guidance was provided
to sites; instead, site contractors were allowed to decide whether to provide notice or pay in lieu
of notice.
                                     Impact on Funding/Program

Inconsistencies in the approach used by Hanford and Savannah River to address workforce
notice requirements, despite similarities in the number and mission of the workers being
displaced at the two sites, were not fully justified by management, led to increased transition
costs at Savannah River and will likely result in disparate treatment of separating employees. As
noted, the Department has paid approximately $7.7 million in lieu of notice to 526 contractor
employees during the post-Recovery Act workforce transition at Savannah River.

                                                 3
These payments were not specifically required by the WARN Act, and, in our judgment, the
argument put forth regarding additional risk had not been fully analyzed and was, therefore,
problematic. While the Department's efforts in constructing and executing the overall workforce
transition plans are notable, additional action is required to ensure that transition costs are limited
to those required and necessary. Further, the Department needs to ensure that similarly situated
workers are treated with reasonable consistency.

RECOMMENDATIONS

We recommend that the Senior Advisor for Environmental Management, in coordination with
the Office of the General Counsel, direct responsible officials to:

     1. Review inconsistencies in the amount of notice/payments in lieu of notice given to
        involuntarily separated employees at the EM sites; and,

     2. Provide formal guidance to the sites as necessary.

MANAGEMENT AND AUDITOR COMMENTS

Management concurred with the report's finding and recommendations. Regarding
Recommendation 1, Management agreed that responsible officials should review the amount of
notice/payments in lieu of notice given to involuntarily separated employees at EM sites and note
various reasons for inconsistencies. Regarding Recommendation 2, EM will require specific
approval by senior EM management for use of pay in lieu of providing WARN Act notice.
Further, EM, in coordination with the Office of the General Counsel, will provide additional
guidance to the sites on WARN Act notice and the Office of the General Counsel will lead a
field call on the subject this year.

We consider management's comments and planned actions responsive to our recommendations.

Attachments

cc: Deputy Secretary
    Associate Deputy Secretary
    Under Secretary for Nuclear Security/Administrator, National Nuclear Security
      Administration
    Acting General Counsel
    Senior Advisor for Environmental Management
    Chief of Staff




                                                  4
                                                                                     Attachment 1


                      OBJECTIVE, SCOPE AND METHODOLOGY


OBJECTIVE

The objective of our audit was to determine whether the Department of Energy (Department) had
developed and was properly executing an effective plan to transition its environmental
remediation contractor workforce to a post-American Recovery and Reinvestment Act of 2009
(Recovery Act) posture.

SCOPE

This review was performed between February 2011 and February 2012, at Department
Headquarters in Washington, DC; the Hanford Site in Richland, Washington; and, the Savannah
River Site in Aiken, South Carolina.

METHODOLOGY

To accomplish the audit objective, we:

   •   Reviewed the Recovery Act legislation and implementing guidance;

   •   Reviewed applicable Federal laws and regulations, Departmental policies and procedures
       and contract requirements related to hiring practices and/or workforce transition;

   •   Analyzed data provided by Headquarters Office of Environmental Management (EM)
       and obtained from EM's website to identify the amount of Recovery Act funds obligated,
       the number of Recovery Act jobs and the projected number of displaced contract workers
       at each site;

   •   Interviewed Headquarters officials from EM, Office of Legacy Management and Office
       of the General Counsel as well as officials from operations offices and site contractors to
       gain an understanding of Recovery Act hiring practices and workforce transition;

   •   Reviewed documentation supporting Recovery Act hiring practices employed by site
       contractors;

   •   Reviewed Recovery Act workforce transition plans for the four EM sites with the greatest
       amount of Recovery Act funding and largest Recovery Act workforces, and associated
       costs for the two EM sites visited; and,

   •   Reviewed supporting documentation to determine compliance with applicable Federal
       laws and regulations as well as Departmental policies and procedures.



                                                5
                                                                       Attachment 1 (continued)


We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our conclusions based on our audit objective. The audit included tests of controls and
compliance with laws and regulations necessary to satisfy the audit objective. In particular, we
assessed the Department's implementation of the Government Performance and Results Act of
1993 and concluded that it had not established performance measures related to transition of
Recovery Act contactor workforce. Because our review was limited, it would not necessarily
have disclosed all internal control deficiencies that may have existed at the time of our audit.
Finally, we did not rely on computer-processed data to accomplish our audit objective.

Officials from the Office of Environmental Management waived an exit conference.




                                                6
                                                                                          Attachment 2



              Summary of Activities and Services for Involuntarily Separated Employees1

                                                                    Contractor
                                                                    CH2M HILL
                                                                      Plateau
                                         Savannah River             Remediation           Mission Support
         Benefits Received              Nuclear Solutions            Company                 Alliance
    Severance Pay                                                                                
    Medical Benefits - Displaced
    Worker Medical Benefits
    (DWMB)2 or Consolidated                                                                      
    Omnibus Reconciliation Act
    (COBRA)
    Vision Benefits – COBRA                                                                      

    Dental Benefits - COBRA                                                                      

    Flexible Spending Accounts -
                                                                                                 
    COBRA
    Preference-In-Hiring                                                                         

    Outplacement Services                                                                        
    Employee Assistance
                                                                                                 
    Program
    Involuntary Separation Notice                                                                 

    60-Day Pay in Lieu of Notice                 

1
    All activities and services are subject to eligibility as determined by the site and/or contractor.
2
    Employees who elect to retire receive associated retirement benefits instead of DWMB.




                                                     7
                                                                                     Attachment 3

                                    RELATED REPORTS


Office of Inspector General:

   •   Audit Report on Contractor Severance Plans at the Department of Energy, (OAS-L-09-
       04, February 2009). Evaluation of 23 contractor plans disclosed that the Department of
       Energy (Department) did not have a consistent approach to reimbursing contractor
       severance benefits costs. Further, contractor severance plans were not always consistent
       in the amount of severance pay available to separated employees based on the same
       number of years of service.

   •   Audit Report on Voluntary Separation Program at the Idaho Cleanup Project, (DOE/IG-
       0765, May 2007). The audit found that the Idaho National Laboratory (Idaho) separation
       program was exceptionally costly and, in certain respects, inefficient. The program
       provided significantly higher incentives than were offered in other recent comparable
       separation programs, used costly incentives that did not have analytical support to justify
       the additional benefits paid, and did not retain critical skills of certain employees needed
       to accomplish the Idaho Cleanup Project.

Government Accountability Office:

   •   Report on The Worker Adjustment and Retraining Notification Act: Revising the Act and
       Educational Materials Could Clarify Employer Responsibilities and Employee
       Rights, (GAO-03-1003, September 2003). In 2001, there were 8,350 plant closures and
       mass layoffs, one-quarter of which appear subject to the Worker Adjustment and
       Retraining Notification (WARN) Act. Of these, the U.S. Government Accountability
       Office (GAO) found that employers only provided notice for about one-third of the
       subject closings and layoffs. GAO states that employers and employees find the WARN
       Act definitions and calculations for deciding whether or not it is necessary to give notice
       difficult to apply.

   •   Report on Department of Energy: Value of Benefits Paid to Separated Contractor
       Workforce Varied Widely, (GAO/RCED-97-33, January 1997). GAO conducted this
       audit due to concerns expressed by a member of Congress about the costs associated with
       implementation of the Department's workforce restructuring plans. The audit found
       similar types of separation benefits were offered at most facilities, but the value of these
       benefits varied among locations. Additionally, limited oversight over implementation of
       workforce restructuring plans is provided by the Department. GAO also noted that the
       Department has improved its ability to retain critically needed skills during downsizing.

   •   Report on Federal Downsizing: The Costs and Savings of Buyouts versus Reductions-in-
       Force, (GAO/GGD-96-63, May 1996). As part of ongoing work examining how Federal
       agencies have used buyouts to downsize the Federal workforce, GAO compared the
       projected costs and savings of buyouts with an alternative downsizing strategy,


                                                8
                                                                   Attachment 3 (continued)


    reductions-in-force (RIF), over a 5-year period. GAO found that buyouts will generate
    more savings than RIFs if typical bumping and retreating take place. In cases in which
    bumping and retreating do not take place, RIFs may yield more savings than buyouts for
    retirement-eligible employees. However, if the separated employee is not eligible for
    retirement, buyout savings would exceed the RIF savings.

•   Report on Workforce Reductions: Downsizing Strategies Used in Selected Organizations,
    (GAO/GGD-95-54, March 1995). The Federal Workforce Restructuring Act of 1994
    required Federal agencies to reduce employment levels by 272,900 full-time equivalent
    positions by the end of Fiscal Year 1999. To obtain information that might be of value in
    carrying out Federal downsizing, GAO contacted 17 companies, 5 states and 3 foreign
    governments that had downsized in recent years. This report presents a compendium of
    the approaches these employers used, including: the planning involved, the methods used
    to reduce their workforces and the human resources aspects of the downsizing.




                                            9
                      Attachment 4

MANAGEMENT COMMENTS




        10
     Attachment 4 (continued)




11
                                                                    IG Report No. OAS-RA-12-06


                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report which would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.

Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                         http://energy.gov/ig

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
